         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Quick Reaction Report




       Results of Technical Network
       Vulnerability Assessment:
       EPA’s Ronald Reagan Building
       Report No. 10-P-0212

       September 7, 2010
Report Contributors:   Rudolph M. Brevard
                       Charles Dade
                       Cheryl Reid
                       Michael Goode, Jr.
                       Vincent Campbell
                       U.S. Environmental Protection Agency 	                                              10-P-0212
                                                                                                    September 7, 2010
                       Office of Inspector General


                       At a Glance
                                                                           Catalyst for Improving the Environment


Why We Did This Review           Results of Technical Network Vulnerability
As part of the annual audit of
                                 Assessment: EPA’s Ronald Reagan Building
the U.S. Environmental
Protection Agency’s (EPA’s)       What We Found
compliance with the Federal
Information Security             Vulnerability testing of EPA’s Ronald Reagan Building network conducted in
Management Act, the Office       June 2010 identified Internet Protocol addresses with numerous high-risk and
of Inspector General (OIG)       medium-risk vulnerabilities. The OIG met with EPA information security
conducted network                personnel to discuss the findings. If not resolved, these vulnerabilities could
vulnerability testing of the     expose EPA’s assets to unauthorized access and potentially harm the Agency’s
Agency’s network devices in      network.
EPA’s Ronald Reagan
Building located in               What We Recommend
Washington, DC.
                                 We recommend that the Director, Enterprise Desktop Solutions Division, Office
Background                       of Environmental Information:
Network vulnerability testing    •	 Provide the OIG a status update for all identified high-risk and medium-risk
was conducted to identify any       vulnerability findings contained in this report.
network risk vulnerabilities
and to present the results to    •	 Create plans of action and milestones in the Agency’s Automated Security
the appropriate EPA officials,      Self-Evaluation and Remediation Tracking system for all vulnerabilities that
who can then promptly               cannot be corrected within 30 days of this report.
remediate or document            •	 Perform a technical vulnerability assessment test of assigned network
planned actions to resolve the      resources within 60 days to confirm completion of remediation activities.
vulnerability.
                                 Due to the sensitive nature of the report’s technical findings, the attachments are
                                 not available to the public.
For further information,
contact our Office of
Congressional, Public Affairs
and Management at
(202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2010/
20100907-10-P-0212.pdf
                          UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       WASHINGTON, D.C. 20460


                                                                                              THE INSPECTOR GENERAL




                                               September 7, 2010

MEMORANDUM

SUBJECT:	                  Results of Technical Network Vulnerability Assessment:
                           EPA’s Ronald Reagan Building
                           Report No. 10-P-0212


FROM:                      Arthur A. Elkins, Jr.
                           Inspector General

TO:	                       Johnny Davis, Jr.
                           Director, Enterprise Desktop Solutions Division
                           Office of Environmental Information


Attached is the final technical network vulnerability assessment report prepared by the Office of
Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA).1 The site
assessment was conducted in conjunction with the Fiscal Year 2010 Federal Information
Security Management Act audit. Vulnerability testing of EPA’s Ronald Reagan Building
network conducted in June 2010 identified Internet Protocol addresses with numerous high-risk
and medium-risk vulnerabilities.

We performed this audit from May through August 2010 at EPA’s Ronald Reagan Building in
Washington, DC. We performed this audit in accordance with generally accepted government
auditing standards. These standards require that we plan and perform the audit to obtain
sufficient and appropriate evidence to provide a reasonable basis for our findings and
conclusions based on the audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions.

We conducted testing to identify the existence of commonly known vulnerabilities using a
commercially available network vulnerability assessment tool recognized by the National
Institute of Standards and Technology. We tested Internet Protocol addresses provided by
Agency representatives and identified as being associated with network resources controlled by
your office. We used the risk ratings provided by the vulnerability software to determine the

1
 A vulnerability assessment is the process of identifying, quantifying, and prioritizing (or ranking) the
vulnerabilities in a tested information system. A vulnerability assessment does not include a penetration test which
would attempt to use the identified vulnerabilities to gain further access into the tested information system.


                                                          1

                                                                                         10-P-0212 



level of harm a vulnerability could cause to a network resource. We accepted the results from the
software tool. The vulnerabilities identified by the software are disclosed in the attachments.

The estimated cost for performing these tests and compiling this report is $7,628.

Recommendations

We recommend that the Director, Enterprise Desktop Solutions Division, Office of
Environmental Information:

   1.	 Provide the OIG a status update for all identified high-risk and medium-risk vulnerability
       findings contained in this report.

   2.	 Create plans of action and milestones in the Agency’s Automated Security Self-

       Evaluation and Remediation Tracking system for all vulnerabilities that cannot be 

       corrected within 30 days of this report. 


   3.	 Perform a technical vulnerability assessment test of assigned network resources within
       60 days to confirm completion of remediation activities.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 30 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates.

Due to the sensitive nature of the report’s technical findings, the full report will not be made
available to the public. However, the OIG plans to publish the unrestricted version of this report,
your response, and any corrective action plans on OIG’s Website, which is available to the
public. Therefore, we request that you provide your response to Recommendation 1 in a separate
document.

If you or your staff have any questions regarding this report, please contact Rudy Brevard at
(202) 566-0893 or brevard.rudy@epa.gov.




                                                2

                                                                                                                                            10-P-0212



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                  POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                                BENEFITS (in $000s)

                                                                                                                      Planned
    Rec.    Page                                                                                                     Completion   Claimed    Agreed To
    No.      No.                          Subject                          Status1         Action Official              Date      Amount      Amount

     1        2     Provide the OIG a status update for all identified       U       Director, Enterprise Desktop
                    high-risk and medium-risk vulnerability findings                 Solutions Division, Office of
                    contained in this report.                                         Environmental Information

     2        2     Create plans of action and milestones in the             U       Director, Enterprise Desktop
                    Agency’s Automated Security Self-Evaluation and                  Solutions Division, Office of
                    Remediation Tracking system for all vulnerabilities               Environmental Information
                    that cannot be corrected within 30 days of this
                    report.

     3        2     Perform a technical vulnerability assessment test of     U       Director, Enterprise Desktop
                    assigned network resources within 60 days to                     Solutions Division, Office of
                    confirm completion of remediation activities.                     Environmental Information




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                 3

                                                                                         10-P-0212


                                                                                       Appendix A

                                        Distribution

Office of the Administrator
Assistant Administrator for Environmental Information and Chief Information Officer
Director, Enterprise Desktop Solutions Division, Office of Environmental Information
Acting Senior Agency Information Security Officer
Acting Director, Technology and Information Security Staff
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-up Coordinator, Office of Environmental Information
Inspector General




                                                 4

